     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103
November 17, 2011

Report Number: A-09-11-02042

Bruce Goldberg, M.D.
Director
Oregon Health Authority
500 Summer Street, NE
Salem, OR 97301

Dear Dr. Goldberg:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Oregon’s Internal Controls Were Substantially Adequate To
Prevent Medicaid Payments to Excluded Providers. We will forward a copy of this report to the
HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-09-11-02042 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure

HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  OREGON’S INTERNAL CONTROLS
 WERE SUBSTANTIALLY ADEQUATE
TO PREVENT MEDICAID PAYMENTS TO
      EXCLUDED PROVIDERS




                        Daniel R. Levinson
                         Inspector General

                         November 2011
                         A-09-11-02042
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved plan. Although the State
has considerable flexibility in designing and operating its Medicaid program, it must comply
with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage, which varies depending on the State’s relative per capita income. Medical assistance
expenditures include expenditures for items and services furnished, ordered, or prescribed by
providers enrolled in the State’s Medicaid program.

Excluded Providers

Pursuant to sections 1128 and 1156 of the Act, the U.S. Department of Health and Human
Services, Office of Inspector General (OIG), established a program to exclude certain individuals
and entities from participation in federally funded health care programs. In this report, we refer
to these individuals and entities as “excluded providers.”

The effect of an exclusion is that the Medicaid program will not pay for items or services
furnished, ordered, or prescribed by an excluded provider. This payment prohibition applies to
the excluded person, anyone who employs or contracts with the excluded person, or any hospital
or other provider where the excluded person provides services during the period of exclusion.
The exclusion period applies until OIG reinstates the provider. The exclusion applies regardless
of who submits the claims and applies to all administrative and management services furnished
by the excluded person. There is a limited exception to exclusions for the provision of certain
emergency items or services not provided in a hospital emergency room.

Federal regulations (42 CFR § 1001) specify certain bases upon which OIG may, or in some
cases must, exclude providers from participation in Medicaid and other Federal health care
programs. Federal regulations (42 CFR § 1002) also specify the authority of State agencies to
exclude providers from participation in the Medicaid program.

Excluded Provider Databases

Two Federal databases contain information on excluded providers. OIG maintains a database
called the List of Excluded Individuals/Entities (LEIE). CMS maintains a database called the
Medicare Exclusion Database (MED). According to CMS State Medicaid Director

                                                1
Letter #08-003, dated June 12, 2008, States should conduct searches monthly of the LEIE or the
MED to identify provider exclusions and reinstatements that have occurred since the last search.

List of Excluded Individuals/Entities

The LEIE contains information on excluded providers in the Medicare, Medicaid, and other
Federal health care programs. The LEIE is available on OIG’s Web site in two formats: an
online search engine and a downloadable version of the database. The online search engine
identifies currently excluded providers. When a match is identified, the user can verify the
accuracy of the match using the Social Security number (SSN) or Employer Identification
Number (EIN). The user may also compare information in the downloadable version of the
database with information in State agency provider enrollment files. Unlike the online search
engine, however, the downloadable version of the database does not contain SSNs or EINs.

Medicare Exclusion Database

In 2002, CMS developed the MED to collect information that aided in ensuring that no payments
are made to excluded providers for services furnished during a provider’s exclusion period. Two
information sources used to populate the MED are the LEIE and Social Security Administration
data. MED files contain information on each excluded provider, including name, SSN, EIN,
Unique Physician Identification Number (UPIN), and National Provider Identifier (NPI). CMS
provides MED files to State Medicaid agencies every month. 1

Oregon Medicaid Program

The Oregon Health Authority (State agency) is the single State agency responsible for
administration of the Medicaid program. Within the State agency, three divisions are responsible
for enrolling new Medicaid providers, maintaining provider records, and paying Medicaid
claims. The three divisions use five computerized payment and information systems to process
Medicaid claims. The State agency develops and maintains internal controls to administer the
Medicaid program and uses both the LEIE and the MED to identify excluded providers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s internal controls were adequate to
prevent Medicaid payments for items and services furnished, ordered, or prescribed by excluded
providers for the period October 1, 2009, through September 30, 2010.

Scope

We reviewed approximately 4.1 million Medicaid claims paid by the State agency, totaling
$1.3 billion, with dates of service from October 1, 2009, through September 30, 2010. We did
not review the overall internal control structure of the State agency or the Medicaid program
1
    As of July 2011, MED files are available only as a download from a secure CMS Web site.

                                                         2
because our objective did not require us to do so. Rather, we limited our review to the State
agency’s internal controls to prevent the payment of Medicaid claims associated with excluded
providers.

We performed fieldwork at the State agency in Salem, Oregon, from May to November 2011.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed State agency policies, procedures, and guidance related to prevention of
        payments to excluded providers and held discussions with State agency officials;

    •   reviewed the LEIE and the MED as of January 2011; 2

    •   developed a list of providers from the State agency’s paid claims databases with
        additional identifying information from the State agency’s Medicaid provider database;
        and

    •   matched the list of providers from the State agency’s paid claims database to the list of
        excluded providers in the MED based on SSN, NPI, EIN, and UPIN.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective.

                                          RESULTS OF AUDIT

The State agency’s internal controls were substantially adequate to prevent Medicaid payments
for items and services furnished, ordered, or prescribed by excluded providers for the period
October 1, 2009, through September 30, 2010. Therefore, our report contains no
recommendations.




2
 We used the MED in our analysis because it contained SSNs and NPIs, which were also listed in the State
agency’s Medicaid provider database.

                                                       3
